<html>
<title> - A LEGISLATIVE PROPOSAL TO IMPEDE NORTH KOREA'S ACCESS TO FINANCE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                       A LEGISLATIVE PROPOSAL TO
                          IMPEDE NORTH KOREA'S
                           ACCESS TO FINANCE

=======================================================================

                                HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON MONETARY

                            POLICY AND TRADE

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 13, 2017

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 115-41


                  U.S. GOVERNMENT PUBLISHING OFFICE                    
29-542 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="85e2f5eac5e6f0f6f1ede0e9f5abe6eae8ab">[email&#160;protected]</a>






                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    JEB HENSARLING, Texas, Chairman

PATRICK T. McHENRY, North Carolina,  MAXINE WATERS, California, Ranking 
    Vice Chairman                        Member
PETER T. KING, New York              CAROLYN B. MALONEY, New York
EDWARD R. ROYCE, California          NYDIA M. VELAZQUEZ, New York
FRANK D. LUCAS, Oklahoma             BRAD SHERMAN, California
STEVAN PEARCE, New Mexico            GREGORY W. MEEKS, New York
BILL POSEY, Florida                  MICHAEL E. CAPUANO, Massachusetts
BLAINE LUETKEMEYER, Missouri         WM. LACY CLAY, Missouri
BILL HUIZENGA, Michigan              STEPHEN F. LYNCH, Massachusetts
SEAN P. DUFFY, Wisconsin             DAVID SCOTT, Georgia
STEVE STIVERS, Ohio                  AL GREEN, Texas
RANDY HULTGREN, Illinois             EMANUEL CLEAVER, Missouri
DENNIS A. ROSS, Florida              GWEN MOORE, Wisconsin
ROBERT PITTENGER, North Carolina     KEITH ELLISON, Minnesota
ANN WAGNER, Missouri                 ED PERLMUTTER, Colorado
ANDY BARR, Kentucky                  JAMES A. HIMES, Connecticut
KEITH J. ROTHFUS, Pennsylvania       BILL FOSTER, Illinois
LUKE MESSER, Indiana                 DANIEL T. KILDEE, Michigan
SCOTT TIPTON, Colorado               JOHN K. DELANEY, Maryland
ROGER WILLIAMS, Texas                KYRSTEN SINEMA, Arizona
BRUCE POLIQUIN, Maine                JOYCE BEATTY, Ohio
MIA LOVE, Utah                       DENNY HECK, Washington
FRENCH HILL, Arkansas                JUAN VARGAS, California
TOM EMMER, Minnesota                 JOSH GOTTHEIMER, New Jersey
LEE M. ZELDIN, New York              VICENTE GONZALEZ, Texas
DAVID A. TROTT, Michigan             CHARLIE CRIST, Florida
BARRY LOUDERMILK, Georgia            RUBEN KIHUEN, Nevada
ALEXANDER X. MOONEY, West Virginia
THOMAS MacARTHUR, New Jersey
WARREN DAVIDSON, Ohio
TED BUDD, North Carolina
DAVID KUSTOFF, Tennessee
CLAUDIA TENNEY, New York
TREY HOLLINGSWORTH, Indiana

                  Kirsten Sutton Mork, Staff Director
               Subcommittee on Monetary Policy and Trade

                     ANDY BARR, Kentucky, Chairman

ROGER WILLIAMS, Texas, Vice          GWEN MOORE, Wisconsin, Ranking 
    Chairman                             Member
FRANK D. LUCAS, Oklahoma             GREGORY W. MEEKS, New York
BILL HUIZENGA, Michigan              BILL FOSTER, Illinois
ROBERT PITTENGER, North Carolina     BRAD SHERMAN, California
MIA LOVE, Utah                       AL GREEN, Texas
FRENCH HILL, Arkansas                DENNY HECK, Washington
TOM EMMER, Minnesota                 DANIEL T. KILDEE, Michigan
ALEXANDER X. MOONEY, West Virginia   JUAN VARGAS, California
WARREN DAVIDSON, Ohio                CHARLIE CRIST, Florida
CLAUDIA TENNEY, New York
TREY HOLLINGSWORTH, Indiana
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    September 13, 2017...........................................     1
Appendix:
    September 13, 2017...........................................    37

                               WITNESSES
                     Wednesday, September 13, 2017

Albright, David, President, Institute for Science and 
  International Security.........................................     5
Klingner, Bruce, Senior Research Fellow, Northeast Asia, the 
  Heritage Foundation............................................    11
Rosenberg, Elizabeth, Senior Fellow and Director, Energy, 
  Economics, and Security Program, Center for a New American 
  Security.......................................................     9
Ruggiero, Anthony, Senior Fellow, Foundation for Defense of 
  Democracies....................................................     7

                                APPENDIX

Prepared statements:
    Waters, Hon. Maxine..........................................    38
    Albright, David..............................................    40
    Klingner, Bruce..............................................    53
    Rosenberg, Elizabeth.........................................    71
    Ruggiero, Anthony............................................    78

 
                       A LEGISLATIVE PROPOSAL TO
                          IMPEDE NORTH KOREA'S
                           ACCESS TO FINANCE

                              ----------                              


                     Wednesday, September 13, 2017

             U.S. House of Representatives,
                           Subcommittee on Monetary
                                  Policy and Trade,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 2128, Rayburn House Office Building, Hon. Andy Barr 
[chairman of the subcommittee] presiding.
    Members present: Representatives Barr, Williams, Huizenga, 
Pittenger, Love, Hill, Emmer, Mooney, Davidson, Tenney, 
Hollingsworth; Moore, Foster, Sherman, Green, Heck, Kildee, and 
Vargas.
    Ex officio present: Representative Hensarling.
    Also present: Representative Wagner.
    Chairman Barr. The Subcommittee on Monetary Policy and 
Trade will come to order. Without objection, the Chair is 
authorized to declare a recess of the subcommittee at any time.
    Today's hearing is entitled, ``A Legislative Proposal to 
Impede North Korea's Access to Finance.''
    I now recognize myself for 5 minutes to give an opening 
statement.
    Today's hearing will examine draft legislation that would 
impose secondary sanctions on foreign banks whose business 
supports the North Korean regime, whether directly or 
indirectly. By encompassing virtually all of North Korea's 
economic activity, these measures would represent the toughest 
financial sanctions yet directed at Pyongyang. This means going 
after coal, petroleum, textiles, and minerals, as well as North 
Korean laborers abroad.
    In addition, the bill would incentivize greater compliance 
with U.N. sanctions by leveraging our vote at the international 
financial institutions where certain countries with lax 
enforcement go to seek assistance. This bill puts those 
countries on notice.
    This proposed legislation has been informed by the 
committee's ongoing work on North Korea, as well as the U.N. 
panel of experts' evaluation of existing sanctions 
effectiveness.
    Needless to say, North Korea's sixth nuclear test on 
September 3rd, coupled with its repeated launching of 
intermediate and long-range ballistic missiles, underlines that 
more must be done. As a result, the legislative draft we will 
be looking at lays out a choice: Foreign banks can either do 
business that benefits North Korea or they can do business with 
the United States. They cannot do both.
    As many of us here today are aware, this is a similar 
approach to the one taken in 2010 against Iran, which helped 
compel the ayatollahs to negotiate over their nuclear program. 
While there are differences of opinion over how successful 
those negotiations were, there is consensus, I believe, that in 
the absence of secondary sanctions affecting banks, Tehran 
would have been far less incentivized to even engage in talks.
    A focus on banks is especially important given how North 
Korea has evaded sanctions in the past. As Dr. John Park of 
Harvard's Kennedy School testified before this subcommittee in 
July, the North Koreans have moved much of their trading 
activity offshore using third-country brokers and front 
companies.
    The specter of financial sanctions may concentrate the 
minds of foreign banks so that the entities identified by Dr. 
Park and others have fewer options to carry out transactions 
and mask North Korean involvement.
    Having said that, this bill would expand the scope of our 
sanctions to encompass even actors engaged in conventional 
trade with the North. Given North Korea's unchecked hostility, 
broadening our efforts in this way appears essential.
    Nevertheless, China's response to stronger sanctions has 
been cited as a concern as the country accounts for an 
estimated 90 percent of North Korea's trade. Some have 
therefore argued that harsher sanctions now may damage 
cooperative efforts with Chinese leaders to curb North Korea's 
weapons program. But I would submit that those critics should 
be far more sensitive to a quarter century of failed 
multilateral efforts to reign in Pyongyang. There comes a time 
when caution or, ``strategic patience,'' as one Administration 
phrased it, becomes a euphemism for self-delusion.
    As this subcommittee learned from its hearing in July, if 
China is not part of the solution to North Korea, it is part of 
the problem. Chinese officials have fallen short on enforcing 
U.N. sanctions that Beijing itself has signed on to. And as the 
U.N. Security Council talks following the North's sixth nuclear 
test have demonstrated, it is still unclear if China is 
committed to meaningfully tackling the North Korean threat.
    Finally, we should acknowledge that Kim Jong-un's eagerness 
in forcing the withdrawal of U.S. troops from the region may 
not be entirely inconsistent with Chinese interests. For all 
the breathless talk of China exerting influence around the 
globe as a rival to U.S. power, we are curiously asked to 
believe that its hands are tied when it comes to a small, 
economically dependent state next door.
    Well, if Chinese officials' hands are tied, then we should 
proceed with secondary sanctions so that their banks can assist 
international efforts to cut off North Korea's access to 
finance. If, on the other hand, China could do more than it 
has, then secondary sanctions may finally inspire it to do so.
    I want to thank our witnesses for appearing today, and I 
look forward to their testimony.
    The Chair now recognizes the ranking member of the 
subcommittee, the gentlelady from Wisconsin, Gwen Moore, for 5 
minutes for an opening statement.
    Ms. Moore. Thank you so much, Mr. Chairman.
    And in the absence of our ranking member of the full 
Financial Services Committee, Ms. Waters, I would like to share 
some thoughts that she has committed to paper regarding today's 
hearing:
    ``I want to thank our witnesses for joining us to discuss 
the legislative proposal aimed at expanding United States 
sanctions against North Korea and pressuring the international 
community to enforce those restrictions as well.
    ``The situation in North Korea is the most urgent and 
dangerous threat to peace and security that we face. And it is 
one that grows more dangerous as North Korea aggressively 
pursues the capacity to extend its nuclear reach to United 
States cities.
    ``In fact, there are no good options for dealing with North 
Korea. Most experts agree that a preemptive strike at this 
point on North Korea would be reckless beyond belief.
    ``Of the least-bad options, I like the idea of pressing 
China to lean more heavily on North Korea and I like the idea 
of tougher sanctions. But we should not confuse either of those 
things with a coherent strategy, and we should be clear up 
front about our goals and objectives and what we expect 
sanctions can accomplish.
    ``Any ratcheting up of sanctions must be coupled with 
aggressive diplomatic engagement by the United States and 
within a framework that would entail nuanced negotiations with 
North Korea, U.S. allies, and China. This would require 
unprecedented policymaking capacity and coordination across the 
United States Government as well as skilled policy coordination 
with our allies.
    ``It concerns me, therefore, that just as this crisis is 
accelerating, our diplomatic capabilities, which open channels 
for crisis communication and reduce the risk of miscalculation, 
are diminished. Not only are U.S. ambassadorships to Japan and 
South Korea still vacant, the President has yet to nominate a 
permanent Assistant Secretary of State for East Asia and 
Pacific affairs.
    ``The legislative proposal before us today rightly 
recognizes the need to exert massive and immediate pressure on 
the North Korean regime and, importantly, enlists China and 
others in this effort. However, such a powerful approach 
towards sanctions that have the capacity to reverberate 
throughout the global economy and present potentially 
disastrous, unintended consequences must also allow for careful 
calibration in its implementation.
    ``We look forward to the witnesses' views on the proposal 
before us as well as your views on how the U.S. can most 
effectively use this leverage to contain the alarming danger 
North Korea presents.
    ``And I reserve my time.''
    Chairman Barr. The Chair now recognizes the gentleman from 
Washington, Mr. Heck, for an opening statement.
    Mr. Heck. Thank you, Mr. Chairman, and Ranking Member 
Moore, for the time. And thank you all for convening this 
important hearing.
    Responding effectively to North Korea's provocations will 
require a variety of tools: credible deterrence; adept alliance 
management; skillful diplomacy; and a careful design of 
nonmilitary sanctions.
    Here in the Financial Services Committee, we have 
jurisdiction over only one of those tools: sanctions. But I 
believe it is important that we always keep the broader picture 
in mind as we work to perfect the discussion draft which has 
been put forward today.
    Even with perfect compliance, I believe it is very 
difficult to stop any country from pursuing a course of action 
which it views as vital to its survival through sanctions 
alone. These challenges are even greater when dealing with a 
regime like North Korea, a regime which relies on force to stay 
in power, a regime which has demonstrated indifference to the 
incredible suffering of its own people, a regime which can 
easily make sure that its elite and its nuclear program are the 
last to feel any pinch.
    Done right, however, sanctions can make further North 
Korean advances slower and more costly, giving more time for 
other policy tools to work.
    And I look forward to hearing from our distinguished 
witnesses about how this proposed draft fits into a larger 
strategy.
    My constituents in the South Puget Sound, who include the 
servicemembers at Joint Base Lewis-McChord, are counting on us 
to respond to this crisis in a responsible manner. So, too, are 
our allies, like South Korea and Japan and an Asia Pacific 
region which has enjoyed decades of peace and prosperity in 
large part because of the credibility of U.S. security 
guarantees and a broader commitment to the region.
    We cannot afford to fail them. We have to get this right. 
And I am hopeful that with steady American leadership working 
in a bipartisan manner, we will get this right.
    I yield back, Mr. Chairman.
    Chairman Barr. The gentleman yields back.
    And because of the significance of the issues under 
consideration in this hearing and the importance of the North 
Korean threat to our homeland and to the interests of our 
country, a number of members from the full Financial Services 
Committee have expressed an interest in participating in 
today's subcommittee hearing.
    And so I ask for unanimous consent that members who are on 
the full committee, but not on this subcommittee, may join in 
this hearing. Without objection, it is so ordered.
    Today, we welcome the testimony of a distinguished panel of 
witnesses. First, David Albright, who is the founder and 
president of the Institute for Science and International 
Security. He has written numerous assessments on the secret 
nuclear weapons programs throughout the world. Mr. Albright has 
published assessments in numerous technical and policy 
journals, including The Bulletin of the Atomic Scientists, 
Science, Scientific American, Science and Global Security, 
Washington Quarterly, and Arms Control Today. Mr. Albright has 
also coauthored four books, including, ``The World Inventory of 
Plutonium and Highly Enriched Uranium,'' as well as, ``Peddling 
Peril: How the Secret Nuclear Trade Arms America's Enemies.''
    Prior to founding the Institute, Mr. Albright worked as a 
senior staff scientist at the Federation of American 
Scientists, and as a member of the research staff of Princeton 
University's Center for Energy and Environmental Studies.
    Anthony Ruggiero is a senior fellow at the Foundation for 
Defense of Democracies. He has spent more than 17 years in the 
U.S. Government as an expert in the use of targeted financial 
measures. Most recently, he was a foreign policy fellow in the 
office of Senator Marco Rubio and was Senator Rubio's senior 
adviser on issues relating to the Senate Foreign Relations 
Committee. Mr. Ruggiero has also served in the Treasury 
Department as Deputy Director and then Director of the Office 
of Global Affairs in the Office of Terrorist Financing and 
Financial Crimes.
    Prior to joining Treasury, Mr. Ruggiero spent over 13 years 
in various capacities at the State Department, including as 
Chief of the Defensive Measures and WMD Finance Team. He was 
also nonproliferation adviser to the U.S. delegation to the 
2005 rounds of the six-party talks in Beijing, and participated 
in U.S.-North Korea meetings following the identification of 
the Macao-based Banco Delta Asia as a primary money-laundering 
concern. He has also served as an intelligence analyst covering 
North Korean nuclear and missile programs and proliferation 
activities.
    Bruce Klingner specializes in Korean and Japanese affairs 
as the senior research fellow for Northeast Asia at the 
Heritage Foundation's Asian Studies Center. He is a frequent 
commentator on the region in U.S. and foreign media. Mr. 
Klingner's analysis and writing about North Korea, South Korea, 
and Japan are informed by his 20 years of service at the 
Central Intelligence Agency and the Defense Intelligence 
Agency.
    From 1996 to 2001, Mr. Klingner was the CIA's Deputy 
Division Chief for Korea, responsible for the analysis of 
political, military, economic, and leadership issues for the 
President of the United States and other senior U.S. 
policymakers. In 1993 and 1994, he was the Chief of the CIA's 
Korea branch which analyzed military developments during a 
nuclear crisis with North Korea.
    Elizabeth Rosenberg is a senior fellow and director of the 
Energy, Economics and Security Program at the Center for a New 
American Security. In this capacity, she publishes and speaks 
on the national security and foreign policy implications of 
energy market shifts and the use of sanctions in economic 
statecraft.
    From May 2009 through September 2013, Ms. Rosenberg served 
as a Senior Adviser to the Assistant Secretary for Terrorist 
Financing and Financial Crimes and then to the Under Secretary 
for Terrorism and Financial Intelligence. In these roles, she 
helped to develop and implement financial and energy sanctions. 
She also helped to formulate anti-money-laundering and counter-
terrorist financing policy and oversee financial regulatory 
enforcement activities.
    Each of you will be recognized for 5 minutes to give an 
oral presentation of your testimony. And without objection, 
each of your written statements will be made a part of the 
record.
    Mr. Albright, you are now recognized for 5 minutes.

 STATEMENT OF DAVID ALBRIGHT, PRESIDENT, INSTITUTE FOR SCIENCE 
                   AND INTERNATIONAL SECURITY

    Mr. Albright. Chairman Barr, Ranking Member Moore, and 
other members of the subcommittee, thank you for the 
opportunity to testify today.
    North Korea's September 3rd nuclear test, its sixth overall 
and by far the largest in terms of explosive yield, 
demonstrates its resolve and commitment to developing a nuclear 
arsenal able to strike its enemies.
    During the last few years, North Korea has embarked on an 
intensive nuclear weapons testing and production campaign that 
has included the construction and operation of many nuclear 
facilities, three underground nuclear tests, and tens of 
ballistic missile launches.
    Its apparent goal is to have a variety of nuclear warheads 
of many varieties mated to ballistic missiles with ranges 
stretching to intercontinental distances. Few doubt that North 
Korea can now launch nuclear-tipped ballistic missiles that can 
strike our allies, Japan and South Korea. There is rightly more 
skepticism that North Korea is yet able to deliver a nuclear 
warhead to an American city, but it is making rapid progress 
toward that goal.
    I continue to believe that North Korea can be peacefully 
denuclearized; however, substantive negotiations appear 
unlikely unless North Korea changes its path. Given North 
Korea's unwillingness to enter denuclearization talks, and its 
provocative behaviors, there is little choice but to assert 
more pressure, including harsher sanctions and additional trade 
cutoffs. The U.N. Security Council resolution passed on Monday 
is an important step in that direction.
    A near-term priority is to far more effectively isolate 
North Korea from the regional and international financial 
system. A central problem is that many countries are not 
enforcing sanctions effectively or are, in some cases, 
willfully disregarding them. Punitive measures are needed to 
encourage compliance and deter violations. Additional U.S. 
legislation that supports that goal is useful.
    North Korea appears to target entities and persons engaging 
in activities in violation of U.N. Security Council sanctions 
in tens of countries with weak or nonexistent trading control 
system, poor proliferation financing controls, or higher-than-
average corruption.
    Although a range of remedies are needed to fix the poor 
performance, in general, of many of these countries, the 
creation of punitive measures may be an effective means to 
accelerate more compliant behavior in the short term among a 
wide range of countries where entities and individuals see 
North Korea as a quick way to make money or obtain military or 
other goods either more cheaply or unavailable elsewhere.
    Dealing with China's trade with North Korea is in a 
different category. North Korea has depended on illegal or 
questionable procurements for decades for its nuclear and other 
military programs. And as the chairman pointed out, they have 
gone offshore quite successfully to be able to acquire those 
goods.
    And they don't just acquire them, let's say, in a country 
such as China. They are able to get those goods from the United 
States, Europe, and Japan by operating in China and exploiting 
China's weak export control and sanctions legislation.
    Although China is improving its export control laws, 
Beijing has certainly not done an adequate job of enforcing its 
laws and sanctions against illegal exports and re-transfers to 
North Korea. And I have provided several examples in my 
testimony.
    China remains North Korea's central, perhaps unwitting 
supply conduit for its nuclear weapons program. And one of the 
priorities is to change that. The Trump Administration's 
efforts to sanction Chinese, and for that matter Russian-owned 
companies and individuals that significantly support North 
Korea's weapons programs, are a positive step.
    But unless China and Russia show dramatic improvements in 
ending their nefarious trade with North Korea, the United 
States should go further and sanction major Chinese and Russian 
banks and companies for any illicit North Korea dealings.
    Both countries have gotten away with for far too long, and 
have faced too-few consequences, for turning a blind eye to the 
sanction-busting business activities of their citizens and 
those of North Korea in using their economies for nefarious 
purposes.
    North Korea has a diplomatic path out of its isolation and 
sanctions if it negotiates a full, verified denuclearization of 
its nuclear and long-range missile programs. Any such 
negotiations would need to repair past mistakes where North 
Korea was able to evade inspections and continue expanding its 
nuclear programs.
    An agreement would also need to allow unprecedented 
inspections and access allowing for a full accounting of the 
program as part of a denuclearization process. Although this 
prospect seems unlikely in the short term, given North Korea's 
current trajectory, it is important to keep this goal available 
as a matter of U.S. policy in case increased sanctions can 
convince North Korea to negotiate in earnest.
    Likewise, the Trump Administration should continue to make 
clear that regime change is not its goal. And particularly if 
the goal is to seek cooperation from China, that becomes even 
more important.
    Chairman Barr. The gentleman's time has expired.
    Mr. Albright. Okay.
    [The prepared statement of Mr. Albright can be found on 
page 40 of the appendix.]
    Chairman Barr. Thank you. We will look forward to the 
remainder of your testimony during the question-and-answer 
session.
    And, Mr. Ruggiero, you are now recognized for 5 minutes.

 STATEMENT OF ANTHONY RUGGIERO, SENIOR FELLOW, FOUNDATION FOR 
                     DEFENSE OF DEMOCRACIES

    Mr. Ruggiero. Thank you, Chairman Barr, Ranking Member 
Moore, and distinguished members of the subcommittee. Thank you 
for the opportunity to address you today on this important 
issue.
    Often, U.S. policy toward North Korea gets stuck in a cycle 
whereby a North Korean provocation is met with a strong 
American rhetoric and/or a token increase in sanctions, a 
pattern repeated over and over. If we don't break this cycle, 
the Kim regime can keep distracting the United States with its 
repeated provocations. We must ensure that the U.S. response to 
every North Korean provocation advances our goal of 
denuclearizing North Korea.
    Some experts will call for the White House to negotiate a 
freeze of North Korea's nuclear program with claims that it 
will reduce the threat and eventually lead to denuclearization. 
But we have seen this movie before and its ending is not 
encouraging.
    North Korea has made it clear that it has no interest in 
denuclearization. To the extent that Pyongyang is interested in 
negotiations, it is only for the purpose of extracting 
concessions in exchange for promises it will quickly violate as 
it did with the 1994 agreed framework.
    In testimony before this subcommittee in July, I noted that 
U.S. sanctions did not have a serious impact because they have 
neither sufficiently targeted enough of Pyongyang's 
international business, nor have they targeted non-North 
Koreans facilitating sanctions evasion. Fortunately, this 
appears to be changing. The Trump Administration has started to 
sanction North Korea's international business partners.
    Since March 31st, the U.S. has sanctioned 43 persons, of 
whom 86 percent operate outside North Korea and 54 percent are 
non-North Koreans. But this work is not done. As I note in my 
written testimony, recent U.S. actions against North Korea 
reveal three methods Pyongyang uses for financing prohibited 
activities.
    In slide one, the first method starts with North Korean 
revenue in China following the sale of commodities brokered by 
Chinese firms and individuals. The payment then moves through a 
North Korean bank. Moving left to right, from there, the funds 
move to a Chinese company and then a front company that 
accesses U.S. banks. This only happens because the U.S. banks 
are tricked into processing the North Korean transactions. This 
is how payment is made for the original item in U.S. dollars.
    This method is important to highlight with recent reports 
that Chinese banks have cut off North Korean accounts. The 
method relies on a ledger system between North Korea and China 
where the Chinese firms and individuals hold these bank 
accounts.
    Slide two, please.
    The second method was identified by the Justice Department 
based on information from an unnamed North Korean defector. On 
the left side of the slide, Chinese entity one owes money to 
North Korean entity one while North Korean entity two owes a 
similar amount to Chinese entity two. The entities pay each 
other, given the difficulties of moving money over the China-
North Korea border.
    Slide three, please.
    The third method was used by a Russian company to receive 
U.S. dollars for a shipment of gas and oil to North Korea. 
Again, this is very important, given the new resolution that 
restricts energy sales.
    A U.S. bank would not process this transaction between 
sanctioned parties. To avoid this scrutiny, the front companies 
were created in Singapore to obscure the nature of the 
transaction, allowing almost $7 million in payments for this 
transfer.
    All three methods show that North Korean suppliers prefer 
U.S. dollar payments, providing a key vulnerability that 
Washington can exploit. This is why it is crucial for the Trump 
Administration to issue fines against Chinese banks that are 
facilitating North Korea sanctions evasion, matching the 
successful U.S. policy, as the chairman said, used to pressure 
European financial institutions that were facilitating Iran 
sanctions violations. The fines likely will prompt Chinese 
banks to increase scrutiny of North Korea-related transactions.
    To be clear, if nongovernmental organizations here in 
Washington can find these transactions, I am confident the 
largest banks in China, with its significant manpower, can find 
them, too. Chinese banks need to do more or face severe 
consequences.
    In the meantime, it is important to remember that there are 
other political considerations at play. Pyongyang is trying to 
decouple the United States from our closest allies in South 
Korea and Japan. The Kim regime's ultimate goal is not a 
suicidal nuclear attack on the U.S. homeland, but rather using 
that threat to bolster Pyongyang's effort to reunify the Korean 
peninsula and intimidate our Japanese allies.
    A sanctions approach that focuses on North Korea's 
financial activities has the best chance of success.
    Thank you again for inviting me to testify, and I look 
forward to your questions.
    [The prepared statement of Mr. Ruggiero can be found on 
page 78 of the appendix.]
    Chairman Barr. Thank you, Mr. Ruggiero.
    Ms. Rosenberg, you are recognized for 5 minutes.

 STATEMENT OF ELIZABETH ROSENBERG, SENIOR FELLOW AND DIRECTOR, 
   ENERGY, ECONOMICS, AND SECURITY PROGRAM, CENTER FOR A NEW 
                       AMERICAN SECURITY

    Ms. Rosenberg. Thank you, Chairman Barr, Ranking Member 
Moore, and distinguished members of the subcommittee. I 
appreciate the opportunity to testify before you today.
    North Korea's alarming and dangerous recent ballistic 
missile launches and its sixth nuclear test highlight the need 
for much stronger pressure on the regime to limit its 
proliferation activities and cease its provocations. Financial 
sanctions should be a core part of a pressure strategy along 
with force posture and projection and complemented by a 
diplomatic engagement to move North Korea toward stability and 
denuclearization.
    I applaud the work of Congress to impose new sanctions 
authorities this past summer to tighten financial pressure on 
North Korea along with complementary new sanctions from the 
United Nations. However, non-enforcement and evasion is gravely 
concerning, particularly when it comes to China, through which 
flows the overwhelming majority of North Korean international 
finance and trade.
    For some observers, the lack of sanctions enforcement is an 
immediate indication that the current sanctions framework is 
inadequate and that the United States should make secondary 
sanctions' shock treatment mandatory to force other countries 
to comply with sanctions.
    While current sanctions authorities are already very 
aggressive to apply pressure on North Korea and its 
international enablers, I support the efforts of this committee 
to consider how mandatory secondary sanctions should be 
deployed to enhance pressure.
    We must not forget, however, that secondary sanctions 
require delicacy in their application. They may be 
counterproductive if they are so aggressive or politically 
incendiary that U.S. partners become utterly defiant, 
uncooperative, and create officially backed evasion schemes and 
impose retaliatory sanctions or economic punishments on U.S. 
firms abroad or a trade war.
    Ultimately, avoiding pitfalls in the use of secondary 
sanctions is primarily the responsibility of the U.S. 
Administration. The body that implements and enforces 
sanctions, Congress, must oversee aggressive sanctions 
implementation, but also give the Administration adequate 
flexibility, even within the framework of mandatory secondary 
sanctions, to impose these measures and also manage their 
consequences for the United States and its partners.
    In addition to sanctions, U.S. policy leaders must deploy 
another form of economic statecraft to target North Korea, 
pushing for rigorous, risk-based approaches for global banks to 
identify and curtail proliferation finance. Currently, only 
large U.S. banks and some major European and Asian banks 
holistically pursue proliferation finance, leaving all other 
global banks significantly vulnerable to abuse by North Korean 
or other proliferators.
    For these other global banks, weak supervisory frameworks 
and expectations, lack of knowledge and resources, and 
insufficient prioritization of the threat means that they often 
take a mechanical approach to proliferation finance in the form 
of checking customers or transactions against entities 
sanctioned by the U.N. or national governments, sometimes, but 
not always, including the United States. This presents obvious 
opportunities for proliferators to use front companies or 
proxies to get around limited compliance controls outside of 
major financial institutions. And we have just heard that 
described in some of the examples offered by my colleague, Mr. 
Ruggiero.
    The global standard-setting body for countering illicit 
finance, the Financial Action Task Force, endorses an approach 
toward proliferation finance along the lines of checking 
customers against sanctions lists instead of a risk-based 
evaluation of suspected proliferation conduct or proliferation 
typologies.
    This limited approach is inadequate and we need much 
stronger leadership from the United States to clarify that 
global banks must take a more holistic, risk-based approach to 
screening and investigation for proliferation finance and that 
there must be stronger public/private information exchange 
around known proliferation entities and typologies.
    In my written testimony, I outline several specific points 
in response to your legislative discussion draft and some ideas 
for additional legislative measures. To briefly summarize a few 
items, I support your tough approach on secondary sanctions and 
encourage the inclusion of meaningful waiver provisions to 
manage unintended consequences.
    Also, I urge you to consider ways to provide additional 
financial support for the Treasury and State Departments and 
the U.S. intelligence community to expand the group of experts 
crafting and enforcing U.S. sanctions and offering technical 
assistance to foreign countries related to sanctions 
enforcement.
    Finally, Congress should mandate new bank supervision 
requirements for U.S. banks extending to their foreign 
branches, subsidiaries and correspondence related to 
proliferation finance and facilitate greater public/private 
information sharing on this topic to enhance global compliance 
and to impede the proliferation threat.
    Thank you for the opportunity to testify, and I look 
forward to answering any questions you may have.
    [The prepared statement of Ms. Rosenberg can be found on 
page 71 of the appendix.]
    Chairman Barr. Thank you.
    And, Mr. Klingner, you are now recognized for 5 minutes.

STATEMENT OF BRUCE KLINGNER, SENIOR RESEARCH FELLOW, NORTHEAST 
                   ASIA, HERITAGE FOUNDATION

    Mr. Klingner. Chairman Barr, Ranking Member Moore, and 
distinguished members of the subcommittee, it is truly an honor 
to be asked to speak before you.
    Although North Korean nuclear and missile programs are 
indigenous, the regime requires access to foreign technology, 
components, and hard currency. Pyongyang maintains covert 
access to the international banking system through a global 
array of overseas networks and shell companies. Most of North 
Korea's financial transactions, and those of the foreign 
entities that assist the regime, continue to be denominated in 
U.S. dollars and thus are still going through U.S. banks.
    While the challenges in imposing targeted financial 
measures on North Korea may appear overwhelming, a closer 
examination reveals several encouraging characteristics. North 
Korea uses a limited number of trusted individuals to run its 
covert networks. Although the shell companies can be swiftly 
changed, the individuals responsible for establishing and 
managing them have remained unchanged, often for years. By 
embedding their illicit activities into the global financial 
network, North Korean agents leave behind a digital trail 
making them vulnerable to targeted sanctions.
    As C4ADS, a non-government organization using only publicly 
available information discovered, while China accounts for 
almost 90 percent of total North Korean trade, the entire 
trading system consists of 5,000 companies. Those firms are 
centralized among a smaller number of large-scale trading firms 
so that the top 10 importers of North Korean goods in China 
controlled 30 percent of the market. And those trading firms 
themselves are controlled by a smaller number of individuals.
    As such, the North Korean network in China is centralized, 
limited, and therefore vulnerable. Therefore, targeting a 
relatively small number of strategic choke points can have 
disproportionate, disruptive ripple effects impacting multiple 
networks across multiple countries.
    Every law enforcement action could induce remaining 
components in the network to change routes, bank accounts, and 
procedures to less-effective means. Even legitimate businesses 
will become more fearful of being entangled in illicit activity 
and more fully implement required due-diligence measures. 
Cumulatively, these efforts reduce North Korea's foreign 
revenue sources, increase strains on the regime and generate 
internal pressure on the regime.
    Sanctions enforcement must be flexible, innovative, and 
adaptive to the changing tactics of the target. But as North 
Korea altered its modus operandi, international law enforcement 
agents didn't keep pace. When North Korea shifted to Chinese 
brokers, the U.S. and U.N. agencies should have begun including 
them on sanctions lists that lagged.
    To raise the cost of North Korean defiance, the U.S. must 
go beyond sanctions and diplomacy to include a full-court press 
to diplomatically and economically isolate North Korea from the 
international community and introduce tremors into regime 
stability.
    For too long, successive U.S. Administrations have used 
sanctions as a calibrated and incremental diplomatic response 
to North Korean provocations rather than a law enforcement 
measure defending the U.S. financial system.
    The U.S. should target any entity suspected of aiding or 
abetting North Korean nuclear missile and conventional arms 
development, criminal activities, money-laundering, or the 
import of luxury goods. The U.S. should also end de facto 
Chinese immunity from U.S. law. Beijing has not paid a price 
for turning a blind eye to North Korean proliferation and 
illicit activity occurring on Chinese soil. Washington has long 
cowered from targeting Chinese violators of U.S. laws out of 
fear of undermining perceived assistance and pressuring North 
Korea or economic retribution against U.S. economic interests.
    The North Korea Sanctions and Policy Enhancement Act 
mandates secondary sanctions on third-country banks and 
companies that violate U.S. sanctions and U.S. law. The U.S. 
should penalize all entities, including Chinese financial 
institutions and businesses that trade with those on the 
sanctions list, export-prohibited items, or maintain 
correspondent accounts for North Korean entities.
    Washington should impose significant fines on China's 4 
largest banks at a commensurate level to the $12 billion in 
fines the U.S. levied on European banks for money-laundering 
for Iran. And the U.S. should designate as a money-laundering 
concern any medium or small Chinese banks or businesses 
complicit in prohibited North Korean activities.
    In conclusion, the most pragmatic U.S. policy is a 
comprehensive, integrated strategy using all of the instruments 
of national power to increase pressure in response to 
Pyongyang's repeated defiance of the international community, 
to expand information operations against the regime, to 
highlight and condemn Pyongyang's crimes against humanity, and 
to ensure the U.S. has sufficient defenses for itself and its 
allies, while leaving the door open for diplomatic efforts.
    Sanctions require time and the political will to maintain 
them in order to work. It is a policy of a slow python 
constriction rather than a rapid cobra strike.
    Thank you again for the privilege of appearing before you.
    [The prepared statement of Mr. Klingner can be found on 
page 53 of the appendix.]
    Chairman Barr. Thank you for your testimony.
    And the Chair now recognizes himself for 5 minutes for 
questions.
    Earlier this month, Russian President Vladimir Putin argued 
that the potential for North Korea sanctions to be effective 
remains limited. He claimed that the North Koreans would, 
``prefer to eat grass,'' rather than give up their nuclear 
weapons.
    How would you respond to those who claim that North Korea 
can always weather sanctions, that sanctions are not an 
effective means of providing substance and meaning to our 
diplomacy, and that the Kim regime will never care if its 
economy will suffer in order for him to advance his weapons?
    And I will ask all of you to briefly respond to that 
question.
    Mr. Albright. I think sanctions can have a very big impact 
in North Korea, partly for what you have been focusing on, they 
are not implemented, so there is a lot of room to really press 
North Korea to change its behavior. So I think it is an 
extremely valuable tool.
    I think part of the purpose of sanctions--I would like to 
see North Korea eat its nuclear weapons. If that is what they 
choose, that the sanctions should start to have a cost, and I 
think that can actually be done. And particularly in North 
Korea, I think it is more vulnerable because it is surrounded 
by very big powers. This isn't like India and Pakistan or even 
Iran. North Korea is a relatively weak state that is surrounded 
by very powerful neighbors who increasingly, even in the case 
of Russia, do not like its behavior.
    Chairman Barr. Mr. Ruggiero, when you answer this question, 
could you also address the issue that, of course, North Koreans 
have been very creative in using third-country brokers, as you 
testified, and front companies to mask their illicit 
transactions? And as you answer the question, could you address 
our draft bill and whether you think that banks and third 
countries, above all China, actually possess the capacity to 
identify these brokers, middle men, and front companies?
    Mr. Ruggiero. On Russia, I would start with perhaps 
President Putin should focus on his Russian companies that are 
facilitating North Korea sanctions evasion, the ones that are 
working with a North Korean proliferation entity called Tangun 
that was designated by the U.N. in 2009, that the U.S. 
sanctioned twice in the last couple of months. So perhaps if he 
had his own companies implementing sanctions, they would do a 
little bit better.
    I would also go back to 2005 and my experience at that 
time, that Banco Delta Asia was very effective in targeting 
North Korea's financial activities. Now, there is a difference 
here because North Korea is, frankly, not stupid enough to 
concentrate all their financial activities in one bank.
    In terms of being creative, certainly people criticized 
sanctions because it is a game of whack-a-mole. And certainly, 
it takes a lot of resources, it did with Iran, but they are not 
invisible. As Mr. Klingner said, if C4ADS can find them, the 
largest banks in the world can find them. And that is the part 
I would highlight, amongst other things in the legislation, is 
the due diligence.
    If we are not having in particular Chinese banks and U.S. 
banks looking for these activities, that is the problem, that 
is the serious problem here.
    Chairman Barr. Ms. Rosenberg?
    Ms. Rosenberg. I would just add that China has a variety of 
strong interests in ensuring that there is no money-laundering 
occurring in their own economy, not just related to their 
support or relationship with North Korea. So yes, I agree that 
China has the capability to go after, investigate, and take 
action on North Korean money laundering or the use of front 
companies in the Chinese economy.
    And if China, a country with extensive and sophisticated 
capital controls and that has taken measures, including 
installing facial recognition cameras at ATMs in order to 
manage the flow of currency outside of China, then they can 
certainly do a lot more to recognize some of these trusted 
agents of the North Korean government that change their names 
and change their legal entities in order to launder money 
through China.
    Chairman Barr. And Mr. Klingner, in the remaining time, if 
you could answer the question. And given how North Korea has 
evaded sanctions in the past, I wanted you to specifically 
address your quote that every U.N. Security Council resolution 
is an incremental step forward. Because of Chinese resistance, 
what we have is incremental law enforcement because we get what 
China allows us to have.
    If the Security Council resolutions are incremental, can we 
afford to just rely only on those, or do we need to do more in 
Congress?
    Mr. Klingner. Yes. I would tell Mr. Putin that sanctions 
have several objectives. They are enforcing U.S. law, they are 
imposing a penalty or a pain on those that violate our laws. 
They put in place measures to make it harder for North Korea to 
import items for their prohibited programs. It puts in place 
tougher proliferation or counter-proliferation measures. And we 
hope, with all the other instruments of national power, that 
gets North Korea to abide by resolutions and laws. So I believe 
in doing the right thing, even if it is difficult. Rather than 
throwing up our hands in despair, I believe in rolling up our 
sleeves and getting to work.
    On implementation--
    Chairman Barr. My time has expired. I will have to yield to 
the gentleman from Illinois at this point, Mr. Foster.
    Maybe you can follow up during the remainder of the time.
    Mr. Foster. Thank you, Mr. Chairman.
    And thank you to our witnesses.
    The financial sanctions we are talking about seem to be 
having two strategic goals. The first is to cut off access to 
the technical components necessary for the development of what 
looks to be many dozens of deliverable nuclear weapons in the 
next several years.
    What is the rough estimate? It has been widely reported 
that there is a lot of indigenous capability to make components 
inside North Korea at this point. So what is the rough amount, 
what is the dollar figure, a decent ballpark estimate for the 
dollar figure for how much they have to purchase outside their 
country to execute that program that everyone is worried about?
    Mr. Albright. I must confess, when we watch their business 
of acquiring equipment, and we focus mostly on the nuclear 
weapons program, they are buying things in orders of millions 
of dollars and they are buying a lot. What they paid--
    Mr. Foster. For example, is it a small fraction of a 
billion dollars?
    Mr. Albright. Yes. I would say for what--because they also 
have an infrastructure that has been in place for 40 or 50 
years that they have been paying for incrementally. So while I 
see they seem to have no shortage of cash to buy things for the 
nuclear program, it is not huge amounts of money that they are 
using.
    Mr. Foster. Yes. But in terms of trying to understand what 
sort of leaks we could tolerate in a sanctions regime designed 
to shut down their nuclear program, the answer is it would have 
to be really prohibitively tight.
    Mr. Albright. But these objects aren't, we have found 
anyway--and even in the case of Iran where they put in place 
more deceptive practices in their procurements, companies, 
governments are pretty good at detecting these things. We get a 
pretty good readout on a lot of what North Korea has acquired 
over the years. And we use that both strategically to 
understand their program and where it is going, but also 
tactically you get a lot of information about the networks that 
you can then act on.
    The problem has been China is not cooperating. So a 
company, let us say a German company in China is getting help 
from its own government to try to defeat the North Korean 
efforts, but the Chinese government isn't doing very much and 
they are the ones who should be doing the most.
    Mr. Foster. So the goal, rather than to actually cut off 
money, which is a tough thing, is to actually increase 
information and increase our shaming ability towards--
    Mr. Albright. But once you identify the goods, you can then 
move to cut off the financing because they have to pay for it, 
as my colleagues have talked about. And so I think these things 
build upon each other. And I think I would agree that going 
after the money is the way to hurt them the most.
    Mr. Foster. The Chinese are well-known to be sort of past 
masters at shuffling around money in black markets. The 
cryptocurrencies alone are just enormous compared to the amount 
of fund transfers that we are talking about having to detect, 
so that is my read.
    The second part of the question, the second strategic goal 
is actually to put pressure on the general economy. You 
mentioned fuel, luxury goods, things like that. And the 
strategic goal there seems to be to put the fear in the 
leadership in North Korea of some sort of general unrest.
    And my big worry on that is that if that actually comes to 
fruition that it will be interpreted as a decapitating strike 
or something like that may trigger even a preexisting plan to 
retaliate certainly against our allies, which, as you 
mentioned, are very hard to defend against given their current 
nuclear capability.
    And so I was wondering if you have any thoughts on that, on 
the sort of risks that we are heading for?
    Mr. Albright. I think, again, if the question was directed 
at me, and maybe someone else can answer.
    Mr. Foster. Ms. Rosenberg?
    Ms. Rosenberg. In addition to those two goals that you 
outlined, I would add a third, which has become what I see as a 
primary goal for Congress in contemplating mandatory, secondary 
sanctions now. That third goal is, putting pressure 
specifically on the foreign or third-country enablers of North 
Korea's either specific proliferation programs or their economy 
more broadly.
    So going after China in particular, Chinese government 
entities, or private institutions, banks, and companies, to 
encourage or compel their greater activity to advance your, as 
you outlined, goals one and two.
    Mr. Foster. Yes, Mr. Klingner?
    Mr. Klingner. One of the functions of the pressure tactics, 
along with increased information operations and ensuring 
sufficient defenses, is to put greater pressure on the regime's 
stability. We want to make Kim Jong-un fearful of regime 
stability if he continues down the path of defying the 
international community.
    That said, I disagree with those who advocate a regime 
change through a decapitation strike, either special forces or 
limited military strikes or a more general invasion. I think we 
are in a long-term game. It is like the long Cold War strategy 
against the Soviet Union. We are deterring, defending, 
pressuring, and seeking to undermine.
    Mr. Foster. Thank you.
    Chairman Barr. The gentleman's time has expired.
    The Chair now recognizes the Vice Chair of the 
subcommittee, the gentleman from Texas, Mr. Williams.
    Mr. Williams. Thank you, Mr. Chairman.
    And thanks to all of you witnesses for your testimony this 
morning.
    North Korea continues to destabilize Southeast Asia and 
threaten the safety of the United States and our allies in the 
region. The aggression shown by Kim Jong-un is equally as 
concerning as the methods he uses to finance his hostile 
activity. As the United States develops its strategy to further 
curb the threat posed by the DPRK, we must consider the 
profound effect that other nations have in enabling their 
actions.
    Because Kim has proven unresponsive to sanctions imposed by 
the West, we must consider actions to target and cut off the 
governments that prop him up. Nations that are unwilling to cut 
ties with the rogue regimes that encourage mass destruction, 
suppress their people, and threaten global security should not 
be in business with the United States of America.
    So with that, Mr. Klingner, can you explain the decision 
that China is faced with when determining whether to do 
business with the United States or continue financial and 
technological support with North Korea? And furthermore, is 
this a geopolitical issue for China, or is their investment in 
North Korea so substantial that there are severe financial 
implications to cutting them off?
    Mr. Klingner. What I would focus on is those entities that 
are acting against the U.N. resolutions as well as 
international and U.S. law, so entities that are violating our 
laws by misusing the U.S. financial system, the money 
laundering and other criminal acts, or that are engaging in 
facilitating the North Korean nuclear and missile programs.
    So I would focus on more of a law enforcement basis of 
going after those entities, banks, businesses, individuals, 
that are violating laws and resolutions.
    Mr. Williams. Okay. Another question, let me follow up. If 
the DPRK eventually falls, what do you believe will be the fate 
of the North Korean people who have been exposed to decades of 
propaganda and oppression? And do you believe that they can 
adapt to a new way of life or a new form of governance?
    Mr. Klingner. I think the answer really, sir, is we don't 
know. They have been isolated for decades. They have been fed a 
daily diet of propaganda. That said, increasingly, information 
from the outside world is getting in. So whether they believe 
the propaganda is a question we debate amongst ourselves. I 
think it varies by individual and by certainly the access they 
have to outside information.
    So that is one of the reasons, like with East Europe and 
the Soviet Union, we are trying to get information into the 
regime as much as we can to have the citizens question the 
propaganda that their government gives them.
    Mr. Williams. Thank you.
    Mr. Albright, can you discuss the level of nuclear 
cooperation that North Korea has with other countries? And who, 
outside of China, do you believe to be of the greatest concern?
    Mr. Albright. North Korea had considerable nuclear 
cooperation with Syria, including essentially building a 
nuclear reactor which was bombed by Israel in 2007 prior to its 
operation. After that, it has been much harder to track any 
nuclear cooperation.
    There are suspicions that something could happen between 
North Korea and Iran and that is a very active area. But as far 
as I know, nothing substantial has been found.
    During the six-party talks, North Korea committed in a 
Singapore minute not to engage in proliferation. Obviously, we 
don't believe that is true. But I think it is on notice that if 
it does engage in significant nuclear cooperation it will be 
incredibly significant and can trigger or cross a red line that 
would be very hard for the United States not to take very 
draconian action, including even military action, if it 
involved plutonium, weapon-grade uranium, or a nuclear weapon.
    Mr. Williams. Okay, thank you.
    And, Mr. Ruggiero, can you discuss the ways in which the 
U.S. Government exposes and then targets money-laundering 
activity related to DPRK? And if we impose secondary sanctions, 
are you confident that we can identify illicit transactions and 
stop them?
    Mr. Ruggiero. I think what we are seeing now, in particular 
with China, is that the Trump Administration is using a 
combination of the Justice Department tools and the Treasury 
Department tools. On six occasions since late May, they have 
used those tools to target money launderers in particular, 
those who are trying to do financial transactions through the 
United States, whether it is designations, requests for asset 
forfeiture, or the new one was what are called damming warrants 
which we are setting that up in U.S. banks, understanding that 
Chinese banks were going to do the transactions through U.S. 
banks.
    We need more of that. We need nongovernmental organizations 
exposing these networks and we need the U.S. Government in 
particular putting the right amount of resources, like we had 
on Iran, on this problem. And I am not sure that latter part is 
happening yet.
    Mr. Williams. Thank you.
    Thank you, Mr. Chairman.
    Chairman Barr. The gentleman's time has expired.
    The Chair recognizes the gentleman from California, Mr. 
Sherman, for 5 minutes.
    Mr. Sherman. Mr. Chairman, I want to commend you on this 
bill draft. I look forward to working with you on it, and I 
look forward to cosponsoring it.
    Chairman Barr. Thank you.
    Mr. Sherman. But I have been doing this for 20 years. And 
for 20 years--I want to applaud you for getting these witnesses 
here, I have heard them often, and they have enlightened me--I 
have sat on the Foreign Affairs Committee, and Administration 
after Administration, expert after expert has come forward and 
we have gone from no nuclear weapons in North Korea to hydrogen 
bombs and near-ICBMs in North Korea.
    What is less well-known is that we have seen a 50 percent 
increase in the real GDP of North Korea, even while this regime 
is subject to sanctions, and then we are told we are going to 
change this with, ``unprecedented sanctions,'' which just means 
a little bit more than what we have been doing before.
    Now, hydrogen weapons, ICBMs, 50 percent GDP growth, some 
would say our policy has been a failure. But viewed another 
way, our policy has been a tremendous success, a success for 
the political class in Washington. We have been able to tell 
Americans we are doing all we can to protect them and don't 
blame us, and at the same time we have avoided doing anything 
that is difficult for the political class in Washington.
    What would those too difficult things be? The first would 
be to move beyond company sanctions to country sanctions. 
Because these witnesses are experts in how we can tell China 
goes after this bank instead of that bank, but as long as China 
wants North Korea to be relatively stable, they will find a 
bank that will do business with them or they will set one up.
    And yet, country sanctions would be very difficult for the 
political class here in Washington because that would really 
concern big companies who would wonder whether there is some 
risk to their supply chain.
    The other thing we haven't done because it is politically 
difficult is to set realistic objectives. We keep banging the 
table and saying we are going to get this regime to give up all 
its nuclear weapons. Saddam's dead, Gadhafi's dead and Kim 
Jong-un does not want to join them and he is not going to give 
up all his nuclear weapons. And if he thought his regime was 
falling, he would use them.
    So I want to commend you, Mr. Chairman, for the more 
realistic objective you have in this bill, because you sunset 
it upon verifiable limits on the nuclear weapons program. We 
might achieve those. So you have done something that those who 
spend their time on foreign affairs have been unwilling to do, 
and you have taken a very constructive step. But I have seen 
this go on.
    Let me ask Mr. Albright, if Kim Jong-un really thought his 
regime was going down, would he shrug his shoulders and go to 
The Hague for trial or would he use his nuclear weapons?
    Mr. Albright. I think if there was a conflict going on, I 
would imagine that he would use them. But if he is knocked off 
by some of his military generals, then he very well may not use 
them. So I think it depends on how this unravels.
    Mr. Sherman. So we can hope that they are saner and more 
peaceful than he is.
    Mr. Albright. I think they would be moving to survive, and 
I think they would want to accommodate the neighbors.
    Mr. Sherman. I will point out, Saddam's people didn't do 
that to him, Gadhafi's people didn't do that to him, and many 
of the people around Saddam and Gadhafi would have been worse 
than their leader.
    How has the North Korean economy grown by 50 percent--I am 
trying to achieve 50 percent economic growth for my country--in 
spite of all these sanctions, Ms. Rosenberg or anybody else?
    Ms. Rosenberg. The first best answer to that is because 
they have been allowed to do that by a broad culture of 
noncompliance and nonenforcement with sanctions.
    Mr. Sherman. Yes. Even if there were no sanctions, 50 
percent economic growth, but I would also want to put this in 
context. Their economy is only $15 billion today. They use as 
much oil in the whole country as 150 gas stations. I have 150 
gas stations on Ventura Boulevard. They grew from a very small 
base and they are still very small, which makes the whack-a-
mole a little bit more difficult because we are dealing with 
relatively small moles.
    I yield back.
    Chairman Barr. The gentleman yields back.
    The Chair recognizes the gentleman from North Carolina, Mr. 
Pittenger.
    Mr. Pittenger. Thank you, Mr. Chairman.
    And I thank each of you for your expert witness today and 
for the very important role that you play in these areas.
    As you may know, I authored an amendment to NDAA that was 
adopted. It would prohibit the Defense Department from doing 
business with Chinese entities that provide material support to 
North Korea's cyber attacks.
    Earlier this year, I also led efforts to punish the Chinese 
government-affiliated firm ZTE, located in the USA, for 
violating export controls and selling embargoed technologies to 
the North Korean government, which resulted in a billion-dollar 
fine.
    Mr. Ruggiero, in your opinion, should my amendment capture 
ZTE? Is this an appropriate response? And would selling 
embargoed technologies to North Korea to be presumably used for 
cyber capabilities qualify as material support for North Korean 
cyber attacks?
    Mr. Ruggiero. On the amendment in terms of anything that 
suggests that firms need to do better at identifying North 
Korea transactions and North Korea companies, and I think an 
amendment like that and the bill that is proposed by the 
committee, the main goal is diligence and making sure that DOD 
and others do not do transactions with companies in China.
    On cyber, I would just point out that there has been some 
focus on North Korea's cyber. There have been some reports 
recently, I believe this month or this week, that North Korea 
is looking at Bitcoin and other cyber-enabled technologies to 
avoid sanctions, including trying to steal Bitcoin I believe 
from South Korea. So that is certainly a different turn on 
their illicit activities.
    Mr. Pittenger. Do you believe these fines are an effective 
deterrent?
    Mr. Ruggiero. I think ZTE is a very interesting case. I 
think that everybody would equate ZTE with a large Chinese bank 
or large or medium-size Chinese bank. And I think, as you well 
know, but others might forget, that ZTE actually agreed to that 
fine and it was because ZTE was caught doing the transactions.
    And I would also point out that there are some North Korean 
front companies that are caught up in the ZTE--
    Mr. Pittenger. Do you think, though, that it will be a 
deterrent?
    Mr. Ruggiero. I think, again, ZTE is--and I think for the 
Chinese leadership, look, if you are a senior official in the C 
suite of a Chinese bank, you have to be worried right now.
    Mr. Pittenger. Sure.
    Mr. Klingner, what other entities like ZTE provide the most 
material support to any North Korean cyber attacks?
    Mr. Klingner. I think a lot of the North Korean programs, 
as I said before, are indigenous, but they do need technology 
and components and knowledge.
    Mr. Pittenger. Any specific ones you have in mind?
    Mr. Klingner. I don't know specific companies right now, 
sir.
    Mr. Pittenger. Would you support blocking those firms from 
doing business with the U.S. or with the Department of Defense?
    Mr. Klingner. I think we should have a provision where you 
can do business with North Korea or you can have access to the 
U.S. financial system. So I think that is a choice that 
companies should have to make.
    Mr. Pittenger. Yes, sir.
    Mr. Klingner, from a strategic standpoint, whenever we 
discuss responses to North Korea, as you said earlier, we are 
really talking about U.S.-China policy. And how can we better 
compel the Chinese government to work with us on this issue?
    Mr. Klingner. I think we need to separate law enforcement 
from diplomacy. We can continue on the U.N. path and cajoling 
and imploring and pressuring China to do more to implement 
required U.N. sanctions, but we don't need Chinese permission 
to enforce U.S. law. So we made clear to them that we are not 
going to negotiate away our law enforcement. We have had 
incrementally better U.N. resolutions, but we should not 
incrementally enforce U.S. law.
    Mr. Pittenger. Thank you.
    Ms. Rosenberg, could you elaborate on data sharing between 
the private and public sector that you mentioned in your 
testimony and what we could do, what type of enhancement and 
capabilities that could provide us and assist our efforts?
    Ms. Rosenberg. Sure, thank you for the question. In my 
written testimony, I outlined a couple of ideas that I think 
would be a good opportunity for Congress to take action on 
increasing data sharing among financial institutions. So 
pursuant to Section 314(b) of the USA PATRIOT Act, instructing 
the Administration to offer some new guidance and adaptation in 
order to facilitate more information sharing between financial 
institutions within U.S. jurisdiction. That will also transfer 
to their--
    Mr. Pittenger. Could this be done, protecting our privacies 
while enhancing our capabilities?
    Ms. Rosenberg. I believe that is absolutely feasible. To be 
sure, it is not a walk in the park. There are a lot of serious 
civil liberties and privacy considerations here. But if we can 
pioneer this, as has been successfully done for the sharing of 
terrorism financing information, then it can and should be done 
for proliferation finance information as well.
    Mr. Pittenger. Thank you. My time has expired. I appreciate 
your comments.
    Chairman Barr. The gentleman's time has expired.
    The Chair now recognizes the gentleman from Arkansas, Mr. 
Hill.
    Mr. Hill. I thank the chairman for this hearing.
    And I particularly appreciate the expertise of our 
witnesses. And I share Mr. Sherman's compliments of their 
longstanding work on this issue, and appreciate your service 
for our government in office and out.
    Bill Newcomb from Johns Hopkins was here a few weeks ago to 
talk on this topic and he basically, in response to my 
question--I asked him, I said, we have been dealing with this, 
as you have, for 3 decades now, 4 Presidencies, and I asked 
him, are we ever going to get serious about sanctions on North 
Korea? And why weren't these great sanctions proposed to 
President Clinton or President Bush or President Obama?
    And he said, ``I think the United States did too little for 
too long and they are just now thinking about getting serious 
about it. But again, it depends on establishing this--meaning 
North Korea--as a national security vital interest.''
    Boy, that confused me because I watched TV in 2002 when 
President Bush declared North Korea a part of the axis of evil.
    So I am confused about why North Korea is so low on your 
chart, Mr. Ruggiero. You have been in government. Why is it 
that we are just now getting serious about North Korea? Tell me 
your top three reasons why for 20 years we have not sanctioned 
North Korea in an effective way?
    Mr. Ruggiero. It has not been the foreign policy priority. 
That is the bottom line. Whether you look at getting rid of the 
sanctions against or giving the money back on Banco Delta Asia 
in 2005, whether it is, and this is going to be bipartisan, 
whether it is removing North Korea from the state sponsor of 
terrorism, as Dr. Albright said, right after we discovered that 
they built a reactor in Syria, or whether it is looking at this 
Congress approving, insisting that North Korea be evaluated as 
a primary money laundering concern. And when you look at that 
detailed information provided last year, you see that financial 
transactions went back all the way to 2009, you start to ask 
the question, what have we been doing over the last 10 years?
    And the answer unfortunately is that it has not been the 
foreign policy priority. And when I hear people suggest that 
this new Administration policy is the same as the prior one, 
that is just frankly not true. As I have said, they have gone 
after China six times, they have gone after Russia, they have 
moved North Korea up the chart, but there is a lot more to do.
    And to the question of how are we going to get from this 
point to denuclearization, the point I would make on this 
Administration is, Secretary Tillerson said it is a dial and it 
is at five or six, it is the United States that is determining 
that it is not at 20 right now, and that is what we really need 
and it should be moved to an extreme level so that North Korea 
will start to feel that impact.
    Mr. Hill. I appreciate that. And I appreciate the work 
Ambassador Haley is doing in the United Nations, but I don't 
think it is a substitute for increased pressure by the United 
States. And I thank the chairman for bringing this draft bill 
before us.
    You said, Mr. Ruggiero, in your testimony that another 
suggestion was mandated inspection for North Korean vessels. Is 
that a United Nations sanction? Is that an American sanction? 
How does one do that and be lawful, how does one do that in a 
legal manner?
    Mr. Ruggiero. Right. I think the U.N. sanctions use the 
phrase, and even the new resolution uses the phrase, 
``reasonable grounds,'' that some kind of sanctions violation 
or prohibited material are being transferred.
    I believe, just as we did with Iran, you can create a group 
of like-minded countries, probably South Korea, Japan, 
Australia, the U.K., France, and Germany, that say we interpret 
that clause to now say there are reasonable grounds that every 
shipment that North Korea puts back and forth from North Korea 
is a violation and that it is subject to inspection.
    Of course, there are international laws with regard to 
flag-state consent and master consent and all of that, that 
would have to be worked out, but that would be a key element, 
just like the proliferation security initiative in the 2000s.
    Mr. Hill. Thank you, Mr. Chairman. I have other questions, 
but I yield back.
    Chairman Barr. The gentleman yields back.
    The Chair now recognizes the gentleman from Ohio, Mr. 
Davidson.
    Mr. Davidson. Thank you, Mr. Chairman.
    And thank you to our guests. I really appreciate your 
testimony, written and verbal, here. I have enjoyed your 
dialogue on the questions.
    And I just want to say that perhaps we are shooting for too 
low of a goal. It seems that our goal there is a non-nuclear 
peninsula in Korea except that most of the parties don't really 
want that outcome, and so it makes it a pretty hard outcome to 
attain.
    We seem to desire it, but we may be one of the few. South 
Korea doesn't want the North to have it, and as long as we have 
their back, I guess they are okay that they don't have it 
themselves. Japan doesn't want it, but the list might stop 
there, frankly.
    And so I think it might make sense to set a higher goal, 
which should have been our goal since 1950, which is an end 
state that does not have the United States defending the North 
Korean Peninsula or the Korean Peninsula altogether.
    What would it take to do that? Well, it would take peace. 
It would take the same sorts of conditions that led to the 
United States minimizing our presence in Germany where the East 
and the West have reconciled. And so we haven't really moved 
down a path that pursues that. We have moved down a path that 
continues to escalate and continues to make seeking nuclear 
weapons somewhat rational for a really irrational guy, 
generation after generation.
    So I think that begin with the end in mind, maybe perhaps 
why we have failed. Along with lots of other things that my 
colleague Mr. Hill highlighted, failure to act in the past.
    I do feel that we have a good track record in Iran to build 
on. And we have had good track records in other situations to 
use economic action to hopefully pursue a peaceful outcome to 
our desired end states.
    And I get that there are some concerns about trade with 
China. They are certainly a key part of our supply chains, but 
they are also a vital part of North Korea's supply chain. And 
at some level, when you look at the risk on supply chain 
management, I think we need to get to the point where we use 
all of the levers of U.S. power to force, just like banks are 
forced to know your customer, the rest of the world needs to be 
forced to know your supplier. And part of that will be hard in 
China. But to enforce these good sanctions that I think are 
highlighted in the North Korea Sanctions and Policy Enhancement 
Act, it may take that.
    And, Mr. Klingner, I think you highlighted a number of 
those things in your testimony. And I would just like to say, 
or ask, how is it that we can take action down to the small 
manufacturing company in China that has allied themselves with 
someone from North Korea and they are moving products, 
services, and cash back and forth? What tangible steps can we 
take to close off that pipeline?
    Mr. Klingner. I think there are a number of things and, 
first of all, it is really having the political will to do it. 
I have been surprised over the years that the U.S. has 
hesitated to enforce its own laws to the same degree to North 
Korea as we have done to a greater degree on other countries 
for far less egregious violations.
    So I think that the three reasons, I might say, are 
naivete, wishful thinking, and lack of political will. We have 
gone down the diplomatic path a number of times. We have tried 
freezes before and they didn't work. I think we need to give 
greater resources to the intelligence community and the State 
Department and the Treasury Department and sort of unleash the 
law enforcement.
    If you talk to officials in the government, they will say, 
yes, for years I have had a list of Chinese and North Korean 
violators in my drawer, and I am sort of allowed to take out 10 
or so every time there is a provocation and then I have to put 
the rest back in the drawer. I think it is time to empty the 
drawer, as it were, of going against all those entities that we 
have evidence for.
    Mr. Davidson. Yes, Mr. Albright?
    Mr. Albright. I think many of these companies are becoming 
multinational and some of them come to the United States for 
their subcomponents. And I think what U.S. companies should be 
doing and they haven't been doing it is gaining assurance from 
those Chinese companies in writing that they will control the 
end use of their product that contains U.S. goods.
    I think that it is in U.S. law, but it should be applied 
much broader to start to push these Chinese companies. If they 
want to do business with the U.S., they have to meet our 
ethical and legal standards that you are not arming, in 
essence, our adversaries.
    Mr. Davidson. Thank you.
    My time has expired, but I get that my conclusion is that 
we have an existing law in place, we don't really need more 
laws, we need to enforce our existing laws.
    I look forward to any other feedback with our office to 
help bridge that gap. So thank you for your testimony.
    Mr. Chairman, I yield back.
    Chairman Barr. Thank you. The gentleman's time has expired.
    The gentlelady from Utah, Mrs. Love, is recognized.
    Mrs. Love. Thank you.
    Thank you all for being here.
    In the wake of North Korea's sixth nuclear test, the 
proposal was circulated among U.N. Security Council members 
that would have frozen North Korea's leaders' assets. Could our 
witnesses just very quickly comment on the desirability of 
expanding the prohibition in our draft legislation to include 
the members of the North Korean government and the DPRK 
Workers' Party?
    We can start with you, Mr. Albright.
    Mr. Albright. Yes, I think it is useful to do.
    Mrs. Love. Okay.
    Mr. Ruggiero. I think there is already an Executive Order 
on that. I would go in a different direction. I would say the 
issue on leadership assets is identification of those assets. 
So anything that can be done to incentivize those folks in 
banks in Europe in particular that might have information on 
leadership assets, I think that would be more beneficial.
    Mrs. Love. Ms. Rosenberg?
    Ms. Rosenberg. I would certainly agree. And not just 
gathering that information and reporting back to the United 
States as a law enforcement matter, but also being able to 
share that among other banks because there is never an instance 
where money laundering exists only in one financial 
institution. That will allow the variety of banks where these 
different assets are located to understand them as a network 
and to stop it.
    Mrs. Love. Okay.
    Mr. Klingner. I would absolutely go after leadership 
assets. Last year, the U.S. finally designated Kim Jong-un, and 
I believe nine others, for human rights violations, so we have 
identified Kim Jong-un in the past. There is an Executive Order 
issued in January, 2015, that gives us the authority to 
sanction any member of the North Korean government simply for 
being a member of the North Korean government. So I think we 
can and should go after not only Kim Jong-un, but the other 
senior leaders.
    Mrs. Love. Okay. Along those same lines, Mr. Klingner, 
could you discuss the potential for North Korea to assist 
countries such as Iran in developing nuclear weapons and 
advanced ballistic missiles?
    Mr. Klingner. As Mr. Albright was saying before, I think 
there has clearly been a missile relationship between North 
Korea and Iran. The first Shahab-3 missiles that Iran paraded 
were actually a hundred percent made in North Korea, they were 
No Dongs and given a local paint job.
    The information on nuclear cooperation is much more 
difficult to get. We know North Korea was engaged in nuclear 
cooperation with Pakistan through the A.Q. Khan network and 
Libya and others, but the information with cooperation with 
Iran is much more difficult to get, particularly outside of 
government.
    I think there clearly is a relationship on the nuclear side 
between the two countries, but I think it is very hard to get 
particularly unclassified information on it.
    Mrs. Love. Mr. Albright, here is my connection between the 
two. I am concerned that if we continue to just try and be as--
and we want to be as diplomatic as possible, we want to be able 
to work with people who are willing to work with us. However, 
we have seen North Korea be incredibly defiant. We have seen 
them do test after test after test.
    To me, and I don't know if you have these same concerns, 
but it seems as if they are not a threat by itself, that the 
proliferation of these activities can support nuclear ambitions 
for other foreign regimes. Are you concerned about that at all?
    Mr. Albright. Certainly. I think you have to be concerned 
with North Korea, because they like to go and sell things of 
value, and their nuclear assets are of increasing value. So you 
have to worry about that a great deal and that has to be part 
of what is watched for and in the messages delivered to North 
Korea.
    I don't think it was a coincidence that the Director of the 
CIA was on FOX News the other day raising this issue. And so I 
think it is important to send the signal that if North Korea 
crosses that line and is willing to sell weapons-grade uranium, 
plutonium, or nuclear weapons, that we will probably respond 
militarily to take out that regime.
    It may be a bluff, but I think it is important that that 
line be maintained and I would say enforced. And North Korea 
will get the message. They don't want to commit suicide.
    Mrs. Love. I just have one more question. Given Beijing's 
reluctance to take a harder line with North Korea, what 
arguments should be brought to bear in order to convince the 
Chinese that pressuring the dictators of North Korea is in 
their self-interest?
    Mr. Albright. One, China wants to be a responsible member 
of the international community. So a lot of these arguments on 
applying sanctions on Chinese companies are the same arguments 
we used in the 1980s against Germany. It was at that point, 
arming Pakistan, Iraq, Libya, Iran and probably several others 
with the wherewithal to make nuclear weapons. So I think these 
are not new arguments. And China wants to be responsible and so 
it should start to act that way.
    Mrs. Love. Thank you very much.
    My time has expired. Thank you, Mr. Chairman.
    Chairman Barr. The gentlelady's time has expired.
    The Chair now recognizes the gentleman from Indiana, Mr. 
Hollingsworth.
    Mr. Hollingsworth. Good morning. I really appreciate 
everybody being here.
    And as everyone has reiterated already, this is an 
important and timely topic and something we need to take with 
grave earnestness. And so I appreciate the consistent testimony 
that everybody here has provided.
    One of the things that I really wanted to talk about was 
making sure that we have partners that are engaged in this as 
well. And Russia comes to mind, and my concern has continued to 
be that they don't have an interest in enforcing sanctions at 
the same level that we do and a willingness to combat this 
issue. The more the United States continues to be, I will use 
the word, ``distracted,'' and I don't mean that lightly, but 
distracted by North Korea, the better off they may see 
themselves.
    And so, can you talk a little bit about what we can do to 
engender some cooperation and willingness on behalf of Russia 
to be able to participate in whatever solution this looks like? 
And that is for any of the panelists.
    Ms. Rosenberg. Thank you for the question for us. I think a 
good strategy is one that we have discussed here primarily with 
regard to China, but in this case applying it to Russia, which 
is, using sanctions or other law enforcement actions to go 
after specific Russian entities that are acting in violation of 
sanctions or specifically in violation of the U.N. sanctions 
so--
    Mr. Hollingsworth. To what extent do you think the Russian 
government would be able to shield those companies from the ill 
effects of those?
    Ms. Rosenberg. It is possible that they would try and do 
that, certainly rhetorically, such as the dismissive rhetorical 
gestures that we were discussing from President Putin. 
Nevertheless, if those companies want to use U.S. dollars, then 
they won't be able to if U.S. sanctions enforcement or law 
enforcement measures prevent them from doing that.
    And any Russian company or bank that wants to stay in the 
good graces of the United States will be very reluctant to 
facilitate such sanctions evasion activity going forward, 
notwithstanding what their political top cover may offer them 
at home.
    Mr. Hollingsworth. So you really believe that these can be 
efficacious, even without participation from the political 
sector in Russia?
    Ms. Rosenberg. I do. And we have seen that in other 
instances not related to North Korea. For instance, in Iran, in 
the era before there was broad international consensus about 
the need for strong sanctions, going after companies and 
speaking directly to them was a way to have them get out far in 
front of their own governments on their willingness to abide by 
sanctions.
    Mr. Hollingsworth. Great. So the second question I have, 
and really, I am just a business guy at heart, so one of the 
things I think about is, what does success look like? When will 
we know that this has been successful? What does that look 
like? And what is the next step after that?
    Obviously, we want, to the greatest extent possible, to 
either slow down or stop the technical progress both with ICBMs 
and nuclear/hydrogen weapons. But what does it look like after 
that? What is the next step? We put in place these very, very 
tight sanctions and we just continue them forever? Or kind of 
tell us a little bit about what phase two would look like 
beyond putting in sanctions that theoretically would work?
    Mr. Albright. I think one is--I should emphasize we haven't 
talked about this that much. The point of this is to have 
meaningful negotiations. That would be a sign of success. If 
North Korea, without accepting benefits, that is one new change 
in this Administration compared to others. The benefits come 
after the concrete actions, not a reward for negotiating.
    But if there are meaningful negotiations that are toward 
denuclearization, creating limits on their nuclear program, you 
see intrusive inspections. Inspectors have never gone outside 
of Yongbyon in North Korea, and yet we know there are other 
sites.
    And if there is movement toward a peace treaty, that is 
also something that is actually important to work into this 
whole process.
    So I think on that side, we know it when we see it. And 
with the new criteria that are being used that are really built 
on avoiding the mistakes of the past, I think that we will know 
it when we see it.
    Mr. Ruggiero. I would just--I agree with most of that. I 
would caution that we want to make sure we get out of the trap 
of negotiations for negotiations' sake. I think from my 
perspective, a freeze is not as valuable as some people think 
it is. I think the next step, if we are talking about 
negotiations, is a demonstratable step by North Korea of its 
commitment to denuclearization, which would flip the 
negotiations on its head.
    And it used to be we freeze then we drag them to 
denuclearization. We need to flip that on its head. But we also 
have to recognize that this might not be the regime that is 
willing to do that. And if sanctions can't get them there, then 
perhaps we need to start having that conversation.
    Mr. Hollingsworth. Your second point notwithstanding, I 
very much agree with the first as well. I just want to comment 
on the second in that making sure we don't just freeze here at 
the precipice of ICBM, at the precipice of being able to launch 
a nuclear attack, but instead move them back, because we have 
seen their willingness to renege on promises before. I don't 
want us to be a month, a year, a year-and-a-half away from an 
ICBM and find them reneging in the future.
    And with that, Mr. Chairman, I will yield back.
    Chairman Barr. I thank the gentleman. The gentleman's time 
has expired.
    The Chair now recognizes the Chair of our Oversight and 
Investigations Subcommittee, and also a member of the House 
Foreign Affairs Committee, the gentlelady from Missouri, Mrs. 
Wagner. She is recognized for 5 minutes,
    Mrs. Wagner. Thank you, Mr. Chairman, for hosting this very 
timely hearing.
    In August, I traveled to Korea and Japan and China to 
dialogue with our allies in the peninsula. And I had the 
opportunity to visit not only the DMZ, but also to visit 
Dandong where I watched Chinese trucks loaded with goods drive 
across the China-Korea Friendship Bridge into North Korea.
    Seventy percent of North Korea's trade passes over that 
bridge. And it was a stark reminder that the United States 
should prioritize secondary sanctions against the Chinese 
companies and banks that sustain the regime.
    Mr. Ruggiero, I have had the pleasure of hearing your 
testimony in the Foreign Affairs Committee before. You wrote 
that North Korea is the fourth-most-sanctioned country in the 
world. And given the recent September U.N. Security Council 
resolution, how would you rank North Korea today, given that 
certain Chinese investments and trade efforts are grandfathered 
in or exempted from the August and September U.N. sanctions? 
How effective do you think the resolutions will be?
    Mr. Ruggiero. I would just point out that February 2016 was 
number eight. And when I testified before this subcommittee in 
mid-July, it was number five, so it is moving up the ranks. But 
it has a long way to go, unfortunately.
    The way I like to look at it is very similar to Iran. In 
2010, we had Resolution 1929. That was really the foundation, 
and sanctions passed by this U.S. Congress and implemented by 
the prior Administration were what put Iran over the edge and 
led it back to the negotiating table. We need that here. We 
have the U.N. foundation, but what we need is the U.S. 
sanctions.
    And I would just say, it is concerning to hear the Treasury 
Secretary say, well, we are going to wait and see if the 
Chinese implement the U.N. resolution. I think that is the 
wrong approach. I think what we should be moving forward with 
right now is U.S. sanctions against Chinese banks. We should 
not give China a veto over U.S. sanctions. They might have a 
veto in the U.N., but they should not have a veto over U.S. 
sanctions.
    Mrs. Wagner. I agree.
    Mr. Klingner, barring a threat to the Kim regime's very 
survival, Kim will never come to the negotiating table in good 
faith, I believe. We must change Kim's financial calculus, as 
we have discussed here, which is why comprehensive secondary 
sanctions are so critical, I believe.
    I appreciated your statement on increasing inspection and 
interdiction of North Korean shipping. Would you support 
mandatory secondary sanctions on ports that don't implement 
required inspections?
    I agree we must pay much more attention to this.
    Mr. Klingner. I agree. And that is something that the 
Congress has been looking at, particularly if a port doesn't 
implement required sanctions, then measures such as any ship 
cannot transit that port and enter the United States waters for 
6 months or so. So it is an area that has been looked at.
    One thing we have been hampered by in the U.N. resolutions 
is that all of them have been passed with what is called 
Chapter 7, Article 41 authority where we are not allowed to 
board a ship on the high seas, even if it is suspected of 
carrying nuclear missile contraband. So we have been advocating 
Chapter 42 which would give us the authority to have Coast 
Guard or law enforcement agencies intercept and board ships.
    Mrs. Wagner. Doesn't the recent package allow us to board 
now and others on the high seas in terms of member states? I 
think they have some new tools, don't they, to stop high-seas 
smuggling of these prohibited products?
    Mr. Klingner. I believe that was included in the original 
U.S. draft, but it was something that I think was tossed 
overboard, as it were, that did not make it in the final 
resolution.
    Mrs. Wagner. Yes, Mr. Ruggiero?
    Mr. Ruggiero. I think that it is the ``reasonable grounds'' 
standard, but it still goes back to what Mr. Klingner is 
saying. You need flag-state consent or masters consent in order 
to board the ship.
    Mrs. Wagner. Okay, quickly here.
    Mr. Albright, in my view, North Korea already has nuclear 
weapons. For my constituents without access to classified 
information, it would be helpful if you can explain from public 
sources how many nuclear weapons the Kim regime may have and 
where they may be.
    Mr. Albright. Yes. We estimate they have 13 to 30 as of the 
end of 2016. It is a rough estimate. We have no idea where they 
are.
    Mrs. Wagner. Thirteen to--
    Mr. Albright. Thirty. And I think the U.S. Government 
estimates are higher than that. But I have worked on this 
problem since 1985 and I have visited North Korea a couple of 
times, met their nuclear people, and I think they are not 
giants technologically and they encounter problems. So that 
estimate tends to be lower than the U.S. Government one, but it 
is still a significant number and it is growing.
    Chairman Barr. The gentlelady's time has expired.
    Mrs. Wagner. Thank you, Mr. Chairman, for your indulgence.
    And thank you, Mr. Albright.
    Chairman Barr. Thank you.
    And because of the interest in the witnesses' testimony, 
Members here I think are interested in a second round of 
questioning. If we can seek the indulgence of the witnesses for 
a brief round, we would appreciate that.
    And with that, I will recognize myself for an additional 5 
minutes of questioning.
    Just to revisit this issue of effectiveness of sanctions, 
and you all heard the comments and questions of my colleague 
from California, Mr. Sherman, on that point. That over the last 
several decades, there has been maybe a lower priority, but 
there have been sanctions nonetheless on North Korea. And yet, 
we have seen a continuous belligerence, a continuous 
development and an acceleration of the development of the 
nuclear program and the capabilities of the Kim regime, 
particularly in recent years.
    So my question to anyone who wants to answer is, what is 
different, if anything, about the foreign policy, the sanctions 
efforts of the current Administration, particularly the efforts 
of Ambassador Haley and the U.N. sanctions packages that she 
has been able to secure at the United Nations?
    We will start with that question and start with Mr. 
Albright.
    Mr. Albright. Yes. I think one is I would like to go back. 
U.S. policy has been to try to stop North Korea from acquiring 
goods. And in the 1980s and 1990s, a lot of effort was made to 
kick them out of Europe because their missions would go to 
companies and buy the goods for their nuclear program. And they 
were kicked out.
    What was not anticipated was that they would move to China 
and set up shop there and buy the same goods from European 
companies, get them to China and then send them by truck up to 
the nuclear program.
    And so the problem has been, and this is, I would say, the 
most important change to me, this Administration, is they are 
willing to risk trade conflict with China to solve this 
problem. And since China has set up shop in North Korea, the 
Administrations have not been willing to do that until this 
one. And I think that is critical.
    Mr. Ruggiero, as you answer that question, you have read 
the draft proposal, the draft bill that we have presented to 
you. Could you comment on that bill and the extent to which it 
would ratchet up this pressure through secondary sanctions on 
the regime?
    Mr. Ruggiero. From my approach, we tend to get ourselves in 
this provocation response cycle and we have done that over the 
last 10 years. But I agree with Dr. Albright that this 
Administration has gone after China and Russia to an extent 
that we haven't seen before. It needs to be sustained.
    I think in the past, we have convinced ourselves--I 
personally have written, I have delivered, I have been in the 
same room when these have been delivered, we give China a list 
and we convince ourselves we have done a tough way forward and 
the Chinese just sort of hand wave and we are okay with that.
    In terms of the legislation, I noted earlier the due 
diligence component. But I would also, beyond the various 
legislations that are out there, it is oversight, because I 
think that the key aspect here is ensuring that these bills 
that eventually become law are actually implemented.
    There are many companies that are still not sanctioned and 
should be subject to sanctions, even from the sanctions law 
last year.
    Chairman Barr. And could I just ask, Mr. Klingner, on the 
heels of that answer, again, revisiting your comment, that the 
importance of the distinction between the U.N. incremental 
enforcement and the U.N. sanctions, the two rounds of U.N. 
sanctions, and Congress and the Administration and the United 
States acting independently. How much more pressure would the 
legislation being proposed or U.S. independent additional 
action on secondary sanctions, how much of a difference would 
that make above and beyond the most recent round of U.N. 
sanctions?
    Mr. Klingner. Right. As I have said, the U.N. sanctions, 
each one is incrementally better than the last. We can be 
cynical or positive about moving the ball a few yards down the 
field. But the U.S. actions, I think, are critical. They are 
measures that we can do ourselves. We don't need permission by 
China.
    And to be honest, I don't see why we are having a debate 
about whether we should be implementing secondary sanctions. 
They are enforcing U.S. law, why should anyone be against 
enforcing our law to the fullest degree?
    So the legislation as well as the oversight through which 
Congress can hold the Executive Branch's feet to the fire to 
try to push them to fully enforce the laws that are either on 
the books or could be on the books. The three main actions the 
Obama Administration did last year were really because they 
were pressured through the North Korea Sanctions and Policy 
Enhancement Act.
    Chairman Barr. I think the difference here is, it is the 
things that you mention, but it is also an issue of lax 
enforcement. So enforcement is very, very critical. The U.N. 
panel of experts points to continued lax enforcement of U.N. 
sanctions by foreign countries, so these secondary sanctions, I 
think, are absolutely critical in applying the additional 
peaceful pressure.
    And I will let Ms. Rosenberg conclude on that point. Do you 
think these secondary sanctions would make a difference from 
previous efforts?
    Ms. Rosenberg. I do. I think we have seen that happen in 
the last year and this year as well. And I think it would do 
more.
    One of the challenges about the new U.N. security measures 
passed this week are that, of course, they are not self-
reinforcing and where they rely on a reduction or a cap on, for 
example, petroleum, that is something that the U.N. will have 
to do accounting on. We have problems with inaccurate or 
unavailable data with countries, member states not feeding the 
data to the United Nations. So I think there is a very high 
likelihood that we are not going to see compliance with this, 
even just as a matter of arithmetic and slow and poor 
reporting.
    What that means is that when the United States can impose 
its secondary sanctions to call out and highlight where foreign 
countries are not undertaking their requirements as U.N. member 
states, it will have a major and significant effect in bringing 
them where they are willing to cooperate to do so.
    Chairman Barr. My time has expired.
    And I will now recognize the gentleman from Arkansas, Mr. 
Hill, for a second round of questioning.
    Mr. Hill. Thank you, Mr. Chairman.
    We also learned in our previous testimony on this subject 
that in the Standing Committee in the Politburo in China, two 
of the seven members are from provinces that abut North Korea, 
and that the presumption is that one gets on the Standing 
Committee of the Politburo by hitting goals established on 
economic development, et cetera.
    So I am interested in your view on China's seriousness 
here. And do you think that they can recognize what Secretary 
Tillerson has laid out quite clearly, that we don't have aims 
for U.S. presence or Western presence at their border?
    And so given that, comment on that Politburo political view 
from your point of view. And also, do you anticipate that China 
would be more helpful after they have their significant party 
congress that I believe is to be held in October? In other 
words, let's talk about the politics in China, about them 
understanding the United States' sincerity in ending this issue 
once and for all.
    Mr. Klingner, do you want to start?
    Mr. Klingner. I think China is as helpful as it needs to be 
to prevent the U.S. from taking further action on our own. The 
message that has been given to China, but I think needs to 
given and more forcefully is, you don't want a crisis on your 
border, but your lack of pressure on North Korea is only 
encouraging Pyongyang to continue going down that path that you 
don't like. It is also inducing the U.S. and its allies to take 
defensive measures, missile defense, et cetera, that China 
doesn't like, but we are being pushed into it by your ally.
    So you can pay me now or you can pay me later. You need to 
increase pressure or we are going to head toward that crisis 
you don't want, China.
    Mr. Hill. Your assessment of, will their diplomatic or 
public position be any different after they complete their 
party congress?
    Mr. Klingner. I have become pretty cynical about North 
Korea and China. And I think it is just that they talk well, 
they implement sanctions for about 1 to 4 months after each 
U.N. resolution, and then they back off.
    Mr. Hill. Mr. Ruggiero, any comment on that?
    Mr. Ruggiero. I agree 100 percent. I think that anyone who 
believes that China will be more cooperative after the party 
congress is falling into Beijing's trap again. Everybody said 
they had a good summit at Mar-a-Lago, and the Chinese were 
onboard. And it turned out that they were not onboard. 
Unfortunately, I can do that over the last 10 years. That has 
happened time and time again.
    And to your question on how do we measure seriousness, I 
think that is a good question. How I measure it is the Chinese 
should not be closing North Korean accounts, they should be 
closing their own nationals' accounts. And they should be in 
Dandong stopping those trucks from going over the bridge. They 
should be in those companies and saying here are the sanctions, 
how are you implementing them? They should be in those banks 
doing the same thing.
    Until they do that, they are not serious.
    Mr. Hill. I appreciate it.
    Dr. Albright?
    Mr. Albright. I agree. I don't know Chinese politics, so I 
can't really say. But I would agree with Mr. Ruggiero that we 
do need signs of seriousness. And I can give an example: If a 
country wanted to inspect the customs areas at the border with 
China and North Korea, a country with vital trade arrangements 
with China, and they weren't allowed in. They were literally 
blocked by the private company running the customs storage 
area.
    So I think it is these signs that we are looking for. And I 
would love to see some Chinese busted. I have been involved in 
Federal prosecutions of at least one Chinese national 
prosecuted successfully here. He was never or his colleagues 
were never prosecuted in China. And so I think these signs are 
critical.
    Mr. Hill. So, Ms. Rosenberg, enforcement we know, and 
upping the ante, but talk about, who is a bigger trading 
partner of China, the United States or North Korea? And can we 
use that stick?
    Ms. Rosenberg. There is certainly no question there. And to 
refer back to the question posed by the Chair at the beginning, 
what has changed, one thing I will say and apropos of what you 
have just said is the willingness of the current U.S. President 
to offer tough rhetoric on North Korea, including raising the 
possibility of whether trade can and should occur between the 
United States and China, even if that is just meant to send a 
really strong signal, that is different and that has clearly 
been a huge wake-up call.
    So obviously now the devil is in the details. How do you do 
implementation? And to be frank, when we have seen China comply 
with other international sanctions frameworks for Iran and 
Russia, even others, when they have gotten with the program, it 
has never looked like them saying to U.S. diplomats, who go sit 
there and pass some intelligence, we got this, we are with you. 
It comes under a different guise.
    And so I would welcome seeing China come forward with its 
own domestic law enforcement or regulatory action against 
certain companies as a matter of going after money laundering 
or prosecuting corruption, which they clearly have an interest 
to do. And if it happens to have an effect on their 
relationship with North Korea, all the better.
    I don't need them to get out in front. And they will have a 
problem politically looking like they are capitulating to U.S. 
sanctions, but if they do it as a measure of domestic financial 
sector integrity, all the better.
    Mr. Hill. I agree with that.
    Thank you, Mr. Chairman.
    Chairman Barr. The gentleman's time has expired.
    The Chair now recognizes the gentleman from Texas, Mr. 
Green.
    Mr. Green. Thank you, Mr. Chairman.
    And I thank the witnesses for appearing as well.
    And I would indicate that we have had many duties related 
to some adverse circumstances that we have encountered related 
to bad weather, and that is putting it mildly, and these things 
have attracted my attention, so my apologies for not being here 
for the entirety of the hearing.
    I am concerned about the sanctions. I do have some 
questions that probably have already been posed, so please 
forgive me for being redundant or superfluous.
    My initial question is, if we can perfect the sanctions as 
codified, what would be the impact on China, first? And then I 
would like to move to a secondary portion of the question, 
which relates to the impact on North Korea.
    So on China, what would be the impact if we perfect these 
sanctions as codified?
    And I will leave this question to whomever would like to 
respond initially.
    Ms. Rosenberg. Thank you for the question. I think that a 
way to perfect or improve upon the sanctions that exist, and 
they are extensive and they are powerful, is to go after them 
prosecuting an aggressive strategy of implementation and 
enforcement.
    And that may or may not include secondary sanctions 
measures, but by making an example of these sanctions and 
calling out the companies in China, certainly in North Korea, 
entities and persons, but also in China and other international 
facilitators of North Korean proliferation entities or its 
economic activity, that is a strong and important way to 
improve upon these sanctions and make them more efficacious.
    Mr. Green. Thank you.
    The efficacy of the sanctions, please, would you care to 
respond, sir?
    Mr. Ruggiero. I would just take a step back. There is 
obviously going to be an impact on Chinese companies and North 
Korean companies. But I think as Dr. Albright noted, China has 
been a problem for a long time in terms of proliferation, 
whether it is with Iran or North Korea.
    A successful goal could be that China finally realizes that 
just issuing a notice from their commerce department with a 
list of goods that are prohibited is not enough, that they need 
to do more, engaging their own companies, engaging their banks, 
and law enforcement actions, inspections at the border, 
authorizing other countries to do those inspections.
    The Chinese are, in a lot of ways, the center of a market 
and it is the market for proliferators and that is a problem. 
And until they realize that they have to change their ways, we 
are unfortunately not going to be successful.
    Mr. Green. Let me follow up with this question. If we 
perfect the sanctions proposed in their entirety, what will be 
the impact on North Korea?
    Mr. Albright. One impact would be probably their gas 
centrifuge program that makes weapon-grade uranium would 
probably stop at some point. It may take a year or two. But 
they do depend on what we would consider perishable goods in 
order to operate that plant and they don't make those goods.
    So I think if we had a perfect set of sanctions, I think 
you could cause serious damage to the progress of their nuclear 
program. You couldn't stop what they already have, but you 
could stop more.
    Mr. Green. Please do not assume that I have a position 
based upon the questions I am posing. I think that these are 
some things that I just need to hear answers to.
    The next question has to do with China's position that if 
the sanctions create turmoil to the extent that North Korea 
becomes a government that no longer exists for all practical 
purposes and people start to flood into China, they have always 
raised that as a possibility. Is it possible that these 
sanctions could create such a circumstance if completely 
implemented against North Korea? Because China is a means by 
which we get to North Korea, so would that create the breakdown 
in governments?
    Mr. Albright. That is China's fear. There has been some 
newer talk in China that, in anticipation of that, the people's 
army would occupy part of North Korea in order to block 
refugees coming into China and also to build housing for--
    Mr. Green. So the expectation is that China would somehow 
seal North Korea such that people in North Korea could not 
migrate into China?
    Mr. Albright. There is discussion of that. It has been on 
the table a long time, but the discussion is recurring. But 
China fears that and that is part of the problem. China fears 
that the instability of North Korea could create problems for 
itself, and it worries about that more than it worries about 
North Korea's nuclear weapons. So it is at the crux of the 
matter and U.S. has to solve that problem for China.
    Mr. Green. Thank you, Mr. Chairman.
    Chairman Barr. Thank you. The gentleman's time has expired.
    The Chair now recognizes the gentleman from Ohio, Mr. 
Davidson.
    Mr. Davidson. Thank you, Mr. Chairman.
    I yield 1 minute to the chairman.
    Chairman Barr. Thank you.
    And very briefly, Mr. Ruggiero, just to follow up on this 
hearing and the legislative proposal to impede North Korea's 
access to finance that has been discussed here today, would the 
passage of this legislation that is being proposed or the mere 
introduction of a bill that directed Treasury to impose these 
additional secondary sanctions, would that, in your judgment, 
give Secretary Tillerson and Ambassador Haley additional 
leverage in their negotiations with China and with Russia with 
respect to North Korea?
    Mr. Ruggiero. I think that is right. When you look at the 
Comprehensive Iran Sanctions and Divestment Act of 2010 
(CISADA), only two banks were designated: China's Kunlun Bank; 
and Iraq's Elaf Bank. Elaf Bank was relieved of those 
sanctions. There were many threats associated with that and 
banks changed their compliance procedures because of that bill.
    Chairman Barr. Thank you.
    I yield back to my friend from Ohio.
    Mr. Davidson. Thank you, Mr. Chairman.
    South Korea has announced that they plan to participate in 
some decapitation exercises. This is kinetic, not financial, 
presumptively. And I guess I am just curious from the panel 
what is your assessment of North Korea's reaction to the 
rhetoric, if not in fact the deeds.
    Mr. Klingner. Actually a year ago, the South Korean 
minister of defense of the previous administration had 
announced that they have a special forces unit whose mission is 
decapitation. He also emphasized they have surface-to-surface 
missiles. And then just a week or two ago, they demonstrated a 
practice attack using their F-15Ks. And they had announced that 
they would conduct such an attack if they detected signs that 
North Korea was about to attack.
    Pyongyang responded, well, we will preempt your preemption 
if they detect indications that South Korea is going to attack.
    So one of my concerns is the risk of miscalculation by 
either Korea or the U.S., and that we sort of stumble across 
the red line in some kind of kinetic military action based on 
very difficult-to-discern intelligence.
    Mr. Davidson. Thank you. I think that is accurate, 
personally.
    I think I am also curious, at some point, doesn't this make 
having a nuclear deterrent, given their massively weaker 
military stature, a rational choice for North Korea to pursue?
    Mr. Albright. Not really. No one is planning to invade 
North Korea. The decapitation idea is a reaction to North Korea 
strikes, some of which happened against South Korea, the 
sinking of their ship by the North Korean submarine, the 
artillery attack where they did not respond, and they have said 
next time we will.
    So I think these kind of actions, I think, have to be put 
in context, but the background is no one is planning. Saddam 
had enemies, Libya had enemies.
    Mr. Davidson. Yes, I understand that--
    Mr. Albright. North Korea doesn't have anybody who wants to 
invade them so they don't need nuclear weapons.
    Mr. Davidson. Yes, I understand what our perspective is and 
I understand our probability of invading North Korea is really 
low. I think that on the other side of the border, they don't 
understand that, frankly. I think when we do our rotational 
efforts and they see division after division after division 
getting experience in Korea, if I am a North Korean, that looks 
a lot like people are preparing to do that. I respect the 
ability to draw different conclusions.
    I guess the next piece I want to talk about is our naval 
power, there is obviously massive, differential naval power 
there. Of the $15 billion mighty North Korean economy, how much 
of it is dependent upon access to the sea? Does anybody know?
    Mr. Klingner. The North Korean naval forces and air forces 
are small and antiquated. So they have given their focus in the 
past on ground forces, and then as those conditions 
deteriorated, even in the 1990s when I was at the CIA, they 
compensated for declining conventional capabilities by focusing 
on asymmetric capabilities, like nuclear weapons, missiles, and 
special forces.
    Mr. Davidson. Right. Are they dependent upon the sea for 
their oil?
    Ms. Rosenberg. Not exclusively. They have the capacity to 
take tanker or delivery as well as pipeline from China.
    Mr. Davidson. So pipeline, but they do get a fair bit by 
ocean?
    Ms. Rosenberg. Or tanker over that bridge, for example. 
Those are all--
    Mr. Davidson. Oh, tanker trucks, not ocean tankers.
    Okay. Thank you.
    I guess the last thing is, in the ability to use naval 
power, what portion of--if you took this up to the next thing 
and a blockade, short of force, this is control the ocean, is 
there an ability to have a discernible impact on North Korea's 
economy?
    Mr. Albright. I would imagine. We have to consider the 
possibility of a submarine-launched ballistic missile.
    Mr. Davidson. Of course.
    Mr. Albright. They are far from that, but you have to worry 
about their submarine force. But in answer to your question, I 
think certainly an embargo would affect their economy.
    Mr. Davidson. Yes, that is the question. So is the next 
step sort of kinetic force--Mr. Chairman, my time has expired. 
I yield back.
    Chairman Barr. Thank you.
    The gentleman's time has expired.
    And I would like to thank our witnesses for their testimony 
today.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    This hearing is adjourned.
    [Whereupon, at 12:01 p.m., the hearing was adjourned.]

                            A P P E N D I X



                           September 13, 2017
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
